APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the District of Columbia
Circuit
(July 20, 2021). . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion in the United
States District Court for the District of
Columbia
(August 6, 2020) . . . . . . . . . . . . . App. 15
Appendix C Order in the United States District
Court for the District of Columbia
(August 6, 2020) . . . . . . . . . . . . . App. 37
Appendix D H. Res. 965 . . . . . . . . . . . . . . . . . App. 39

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 20-5240
[Filed: July 20, 2021]
Argued November 2, 2020
Decided July 20, 2021
____________________________________________
KEVIN OWEN MCCARTHY, THE HONORABLE,
)
IN HIS OFFICIAL CAPACITY AS HOUSE MINORITY
)
LEADER AND MEMBER OF THE UNITED STATES
)
HOUSE OF REPRESENTATIVES FOR THE
)
CALIFORNIA 23RD CONGRESSIONAL
)
DISTRICT, ET AL.,
)
APPELLANTS
)
)
v.
)
)
NANCY PELOSI, THE HONORABLE, IN HER
)
OFFICIAL CAPACITY AS SPEAKER OF THE
)
HOUSE OF REPRESENTATIVES AND MEMBER
)
OF THE UNITED STATES HOUSE OF
)
REPRESENTATIVES FOR THE CALIFORNIA
)
12TH CONGRESSIONAL DISTRICT, ET AL.,
)
APPELLEES
)
_____________________________________________)
Appeal from the United States District Court
for the District of Columbia
(No. 1:20-cv-01395)

App. 2
Charles J. Cooper argued the cause for appellants.
With him on the briefs were Michael W. Kirk, Harold
S. Reeves, J. Joel Alicea, Steven J. Lindsay, and Elliot
S. Berke.
John C. Eastman and Anthony T. Caso were on the
brief for amici curiae Center for Constitutional
Jurisprudence, et al. in support of appellants.
Douglas N. Letter, General Counsel, U.S. House of
Representatives, argued the cause for appellees. With
him on the brief were Todd B. Tatelman, Principal
Deputy General Counsel, Megan Barbero and
Josephine T. Morse, Deputy General Counsel, Adam A.
Grogg, Assistant General Counsel, William E.
Havemann, Associate General Counsel, Michael R.
Dreeben, Samantha M. Goldstein, Kendall Turner,
Ephraim A. McDowell, Anna O. Mohan, and Alec
Schierenbeck.
Before: SRINIVASAN, Chief Judge, ROGERS and
WALKER, Circuit Judges.
Opinion for the court filed by Chief Judge
SRINIVASAN.
SRINIVASAN, Chief Judge: In response to the
COVID-19 pandemic, the House of Representatives
adopted a Resolution enabling Members who are
unable to attend proceedings in person to cast their
votes and mark their presence by proxy. A number of
Representatives and constituents challenge the
constitutionality of the Resolution. They argue that
various constitutional provisions compel in-person
participation by Representatives in all circumstances,
including during a pandemic.

App. 3
The district court dismissed the suit for lack of
jurisdiction. The court concluded that the Resolution
and its implementation lie within the immunity for
legislative acts conferred by the Constitution’s Speech
or Debate Clause. We agree, and we thus affirm the
district court’s dismissal of the case.
I.
A.
In March 2020, the World Health Organization
declared COVID-19 a pandemic. H. Rep. No. 116- 420,
at 2 (2020). In response to the unprecedented
public-health crisis, the United States House of
Representatives adopted House Resolution 965 in May
2020. The Resolution establishes a process under which
House Members can cast their votes and mark their
presence by proxy if they cannot personally attend
proceedings due to the public-health emergency. See
H.R. 965 (May 15, 2020).
The Resolution states:
[A]t any time after the Speaker or the Speaker’s
designee is notified by the Sergeant-at-Arms, in
consultation with the Attending Physician, that
a public health emergency due to a novel
coronavirus is in effect, the Speaker or the
Speaker’s designee, in consultation with the
Minority Leader or the Minority Leader’s
designee, may designate a period (hereafter in
this resolution referred to as a “covered period”)
during which a Member who is designated by
another Member as a proxy . . . may cast the

App. 4
vote of such other Member or record the
presence of such other Member in the House.
Id. § 1(a). A covered period automatically ends in 45
days, but the Speaker or her designee may extend the
period for an additional 45 days if the Speaker
“receives further notification from the Sergeantat-Arms, in consultation with the Attending Physician,
that the public health emergency due to a novel
coronavirus remains in effect.” Id. § 1(b)(1)–(2).
Any Member “whose presence is recorded by a
designated proxy,” or whose vote is cast by a proxy,
“shall be counted for the purpose of establishing a
quorum.” Id. § 3(b). To designate a proxy, a Member
submits to the Clerk of the House a “signed letter . . .
specifying by name the Member who is [so]
designated.” Id. § 2(a)(1). The letter must state that the
Member designating a proxy is unable to attend
proceedings in person because of the public-health
emergency. Id. § 2(a)(1); Remote Voting by Proxy
Regulations Pursuant to House Resolution 965 § A.1.i,
166 Cong. Rec. H2257 (daily ed. May 15, 2020).
Members cannot grant a “general proxy” giving
another Member blanket authority to vote for them.
Instead, a Member acting as a proxy must “obtain an
exact instruction” in writing that is specific to a
particular vote or quorum call. H.R. 965 § 3(c)(1), (c)(6).
And if the instruction pertains to a bill whose text
subsequently changes, no proxy vote can be cast unless
there is a new instruction. Remote Voting by Proxy
Regulations § C.4, 166 Cong. Rec. H2257.

App. 5
A Member can act as a proxy for a maximum of ten
other Members at any one time. H.R. 965 § 2(a)(4).
Members serving as proxies must announce on the
House floor which remote Members they represent and
what instructions they have received. Id. § 3(c)(2). The
Clerk of the House maintains a publicly available list
of proxy designations. Id. § 2(b).
B.
On May 20, 2020, Speaker of the House Nancy
Pelosi authorized proxy voting pursuant to the
Resolution for a period of 45 days. There have since
been several extensions, the most recent of which
expires on August 17, 2021. Press Release, Dear
Colleague to All Members on Extension of Remote
Voting ‘Covered Period,’ SPEAKER OF THE HOUSE NANCY
PELOSI (June 28, 2021), https://www.speaker.gov/
newsroom/62821-0.
On May 26, 2020, House Minority Leader Kevin
McCarthy—along with dozens of other Representatives
and several constituents—challenged the
constitutionality of the Resolution in a lawsuit against
Speaker Pelosi, the Clerk of the House, and the House
Sergeant-at-Arms. The suit contends that various
constitutional provisions require Members to be
physically present on the House floor in order to count
towards a quorum and cast votes. The plaintiffs seek a
declaration that House Resolution 965 is
unconstitutional, as well as preliminary and
permanent injunctions barring the defendants from
implementing proxy voting in the House.

App. 6
The defendants moved to dismiss the action,
arguing that it is precluded by the Constitution’s
Speech or Debate Clause, and alternatively, that the
plaintiffs lack standing to bring it. The district court
granted the motion on the ground that the Speech or
Debate Clause bars consideration of the suit. The
plaintiffs now appeal.
II.
The defendants argue that we should not reach the
merits of the constitutional challenge in this case for
the same two reasons they advanced in the district
court: first, the Speech or Debate Clause prevents us
from considering the challenge; and second, the
plaintiffs lack standing. Both those arguments state
jurisdictional objections. See Rangel v. Boehner, 785
F.3d 19, 22 (D.C. Cir. 2015). And while we must resolve
jurisdictional questions before we can address the
merits of a dispute, we can take up jurisdictional issues
in any order. Id.; see Sinochem Int’l Co. v. Malaysia
Int’l Shipping Corp., 549 U.S. 422, 431 (2007). We opt
to begin with the question of Speech-or-Debate-Clause
immunity. Because we agree with the district court
that the Clause bars consideration of the plaintiffs’
suit, we have no need to consider whether they have
standing.
The Speech or Debate Clause states that “Senators
and Representatives . . . for any Speech or Debate in
either House . . . shall not be questioned in any other
Place.” U.S. CONST. art. I, § 6, cl. 1. The Speech or
Debate Clause occasioned neither speech nor debate at
the Constitutional Convention: the Clause gained
approval “without discussion and without opposition.”

App. 7
United States v. Johnson, 383 U.S. 169, 177 (1966);
Rangel, 785 F.3d at 22.
The central object of the Speech or Debate Clause is
to protect the “independence and integrity of the
legislature.” Johnson, 383 U.S. at 178. The Clause does
so by preventing “intimidation of legislators by the
Executive and accountability before a possibly hostile
judiciary.” Gravel v. United States, 408 U.S. 606, 617
(1972).
While the Clause by terms prohibits “Speech or
Debate in either House” from being “questioned in any
other Place,” see U.S. CONST. Art. I, sec. 6, it is long
settled that the Clause’s protections range beyond just
the acts of speaking and debating. To “confine the
protections of the Speech or Debate Clause to words
spoken in debate would be an unacceptably narrow
view.” Gravel, 408 U.S. at 617. Rather, the “Supreme
Court has consistently read the Speech or Debate
Clause ‘broadly’ to achieve its purposes.” Rangel, 785
F.3d at 23 (quoting Eastland v. U.S. Servicemen’s
Fund, 421 U.S. 491, 501 (1975)); see Gravel, 408 U.S. at
624.
Of particular salience, the Clause applies not just to
speech and debate in the literal sense, but to all
“legislative acts.” Doe v. McMillan, 412 U.S. 306,
311–12 (1973). Legislative acts are those “generally
done in a session of the House by one of its members in
relation to the business before it.” Kilbourn v.
Thompson, 103 U.S. 168, 204 (1880); see Gravel, 408
U.S. at 624. Consequently, while the “heart of the
Clause is speech or debate in either House,” the Clause
reaches matters forming “an integral part of the

App. 8
deliberative and communicative processes by which
Members participate in committee and House
proceedings with respect to the consideration and
passage or rejection of proposed legislation or with
respect to other matters which the Constitution places
within the jurisdiction of either House.” Gravel, 408
U.S. at 625.
Additionally, although the Clause’s terms expressly
prohibit questioning of “Senators or Representatives”
in connection with legislative acts, it is well established
that the Clause’s protections extend to Congressional
aides and staff. See id. at 618, 621; Rangel, 785 F.3d at
24–25. The Clause applies to aides and staff “insofar as
[their] conduct . . . would be a protected legislative act
if performed by [a] Member.” Gravel, 408 U.S. at 618.
The “key consideration, Supreme Court decisions teach,
is the act presented for examination, not the actor.”
Walker v. Jones, 733 F.2d 923, 929 (D.C. Cir. 1984).
Here, the acts presented for examination are
quintessentially legislative acts falling squarely within
the Clause’s ambit. The challenged Resolution enables
Members to cast votes by proxy, and the “act of voting”
is necessarily a legislative act—i.e., something “done in
a session of the House by one of its members in relation
to the business before it.” Gravel, 408 U.S. at 617
(quoting Kilbourn, 103 U.S. at 204); see id. at 624
(“voting by Members” is “protected”); Walker, 733 F.2d
at 929 (Clause covers “such activity integral to
lawmaking as voting”).
House rules governing how Members may cast their
votes thus concern core legislative acts. And here, the
acts sought to be enjoined by the plaintiffs’ suit all

App. 9
involve implementation of proxy voting pursuant to the
Resolution. The suit seeks to bar: (i) the
Sergeant-at-Arms from notifying the Speaker of the
existence of a public health emergency due to
COVID-19—the triggering condition for proxy voting
under the Resolution; (ii) the Speaker from designating
a covered period in which proxy voting will be
permitted; (iii) the Clerk from accepting proxy letters
from Members and maintaining a proxy list; and
(iv) the Clerk from tabulating and recording proxy
votes and counting proxy Members as present for
quorum purposes.
Because those actions all effectuate proxy voting
under the Resolution, they form “an integral part of
the . . . processes by which Members participate in . . .
House proceedings with respect to the . . . passage or
rejection of proposed legislation.” Gravel, 408 U.S. at
625. Indeed, we are hard-pressed to conceive of matters
more integrally part of the legislative process than the
rules governing how Members can cast their votes on
legislation and mark their presence for purposes of
establishing a legislative quorum.
Our decision in Consumers Union of United States,
Inc. v. Periodical Correspondents’ Association, 515 F.2d
1341 (D.C. Cir. 1975), provides an instructive frame of
reference. Consumers Union involved a challenge to
congressional rules requiring members of the press to
apply to gain access to the House and Senate press
galleries. Id. at 1342, 1344–45. We found the challenge
barred by the Speech or Debate Clause, concluding that
administration of seating in the press galleries is a
legislative act. Id. at 1350.

App. 10
We explained that, under the Supreme Court’s
decision in Gravel, legislative acts for purposes of
Speech-or-Debate-Clause immunity include both
(i) matters pertaining “to the consideration and
passage or rejection of proposed legislation,” and
(ii) “other matters which the Constitution places within
the jurisdiction of either House.” Gravel, 408 U.S. at
625; Consumers Union, 515 F.2d at 1349–50.
Administration of seating in the press galleries, we
specifically acknowledged, did not fall within the first
of those categories. Consumers Union, 515 F.2d at
1350. But we concluded it fell within the second
category, explaining that “Gravel . . . in delineating
legislative acts, . . . said that . . . the Clause [also]
applied to ‘other matters which the Constitution places
within the jurisdiction of either House.’” Id. at 1351
(quoting Gravel, 408 U.S. at 625).
This case, if anything, more centrally involves
legislative acts than did Consumers Union. As in that
case, the challenged actions here fall within Gravel’s
second category, i.e., matters that the Constitution
places within the House’s jurisdiction: the House
adopted its rules for proxy voting under its power to
“determine the Rules of its Proceedings,” U.S. CONST.
art. I, § 5, cl. 2. But while both this case and
Consumers Union thus implicate Gravel’s second
category, this case, unlike Consumers Union, also
implicates Gravel’s first category: rules enabling proxy
voting squarely concern “the direct business of passage
or rejection of proposed legislation.” Consumers Union,
515 F.2d at 1351; see Gravel, 408 U.S. at 625. If the
Speech or Debate Clause covers the administration of

App. 11
seating in the press galleries, in short, it must also
cover the administration of voting by Members.
A comparison between this case and the
circumstances we faced in Walker v. Jones, 733 F.2d
923, is also illuminating. Walker involved a suit
brought by the general manager of the House
Restaurant System alleging that a House Member had
terminated her employment because of her gender. Id.
at 925. We rejected the House Member’s contention
that the Speech or Debate Clause barred the suit. “To
characterize personnel actions related to [food] services
as ‘legislative’ in character,” we determined, “is to
stretch the meaning of the word beyond sensible
proportion.” Id. at 931. By the same token, to
characterize actions related to the casting of votes by
Members as not “legislative” in character, we believe,
would be to resist the meaning of the word beyond
sensible proportion.
In arguing nonetheless that the Speech or Debate
Clause does not bar their suit, the plaintiffs in this case
seek to draw a fundamental divide between the
enactment of legislation and the execution of it. As the
plaintiffs see it, the acts of voting on and adopting the
Resolution lie within the Clause’s zone of immunity,
but acts undertaken in implementing the Resolution do
not. In their view, then, the Clause does not insulate
from judicial review the conduct they seek to
enjoin—e.g., the Sergeant-at-Arms’s notifying the
Speaker of a public health emergency, the Speaker’s
ensuing designation of a period in which proxy voting
may occur, and the Clerk’s acceptance of proxy letters
and counting of proxy votes. Those actions, in the

App. 12
plaintiffs’ conception, merely implement the Resolution
and thus fall outside the Speech or Debate Clause’s
protections.
That argument does not withstand scrutiny. The
salient distinction under the Speech or Debate Clause
is not between enacting legislation and executing it.
The pivotal distinction instead is between legislative
acts and non-legislative acts. So in Consumers Union,
the Clause encompassed not just the promulgation of
the rules governing seating in the press galleries, but
also the administration and enforcement of those rules.
See 515 F.2d at 1350–51. The suit there sought to
address, among other things, a specific decision to deny
access to a particular publication in implementation of
the challenged rules. See id. at 1345–46. That action
fell within the Clause’s protections, and we accordingly
spoke of the Clause’s applicability to conduct “enforcing
internal rules of Congress” or “execut[ing] . . . internal
rules.” Id. at 1350–51. The Clause, then, encompasses
the execution of legislation when the executing actions
themselves constitute legislative acts. That was true in
Consumers Union and is no less—and, if anything,
more—true here.
The three decisions principally relied on by the
plaintiffs—Kilbourn, 103 U.S. 168, Dombrowski v.
Eastland, 387 U.S. 82 (1967), and Powell v.
McCormack, 395 U.S. 486 (1969)—are not to the
contrary. In each of those cases, “the speech or debate
privilege was held unavailable to certain House and
committee employees.” Gravel, 408 U.S. at 618
(discussing Kilbourn, Dombrowski, and Powell). As the
Supreme Court has explained in specific reference to

App. 13
those three decisions, they “do not hold that persons . . .
are beyond the protection of the Clause when they
perform or aid in the performance of legislative acts.”
Id. The Court thus necessarily considered the persons
whose conduct was at issue in those cases to have been
uninvolved “in the performance of legislative acts.”
To be sure, the acts in question in those cases could
be described as the execution of legislative action. See
id. at 618–20. Kilbourn, for instance, concerned a
House employee’s arrest of a particular person in
execution of a resolution authorizing the arrest of that
individual. Id. at 618. And conduct carrying out
legislation is beyond the Speech or Debate Clause’s
compass when it is not itself a legislative act, as was
the case in Kilbourn: the arrest was not “an integral
part” of the “processes by which Members participate
in . . . House proceedings with respect to the
consideration and passage or rejection of proposed
legislation or with respect to other matters which the
Constitution places within the jurisdiction of either
House.” Id. at 625.
But whereas the resolution in Kilbourn authorized
the arrest of a third party, the resolution in this case
establishes internal rules governing the casting of votes
by Members. And conduct implementing the latter
resolution—including the Clerk’s counting and
recording of proxy votes—is itself a legislative act,
pertaining directly “to the consideration and passage or
rejection of proposed legislation.” Id. That conduct thus
falls comfortably within the immunity afforded by the
Speech or Debate Clause.
* * * * *

App. 14
For the foregoing reasons, the judgment of the
district court is affirmed.
So ordered.

App. 15

APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 20-1395 (RC)
Re Document Nos. 8, 16
[Filed: August 6, 2020]
_________________________________________
HON. KEVIN OWEN MCCARTHY, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
HON. NANCY PELOSI, et al.,
)
)
Defendants.
)
_________________________________________ )
MEMORANDUM OPINION
GRANTING DEFENDANTS’ MOTION TO DISMISS;
DENYING PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
I. INTRODUCTION
On May 15, 2020, in response to the global health
crisis caused by the COVID-19 pandemic, the United
States House of Representatives (the “House”) adopted
House Resolution 965, 116th Congress (“H. Res. 965”).
The adopted resolution creates a framework by which

App. 16
Members of the House may designate proxies to cast
votes on their behalf based on their explicit
instructions. Plaintiffs—a group of House Members
and constituents—filed suit seeking declaratory
judgment that H. Res. 965 is unconstitutional and an
injunction against its continued use in the House.
Plaintiffs argue the resolution violates the Quorum
Requirement, the Yeas and Nays Requirement, the
nondelegation doctrine, and the general structure of
the United States Constitution, which they maintain
require actual physical presence to do the business of
the House. Am. Compl. ¶¶ 264–287, ECF No. 7.
Defendants urge the Court not to reach the merits of
the case, arguing that various threshold doctrines bar
review of Plaintiffs’ claims. Because the Court finds
that Defendants are immune from suit under the
Speech or Debate Clause of the Constitution, it does
not reach the merits and grants Defendants’ Motion to
Dismiss.
II. BACKGROUND
COVID-19 is a “severe acute respiratory illness,”
caused by a novel coronavirus discovered in 2019, with
no known cure, effective treatment, or vaccine. S. Bay
United Pentecostal Church, 140 S. Ct. 1613, 1613
(2020) (Roberts, C.J., concurring) (mem.). Millions of
people across the United States and the world have
been infected and hundreds of thousands have died
from the disease. See Ctrs. for Disease Control and
Prevention (“CDC”), Coronavirus Disease 2019
(COVID-19): Cases in the U.S. (Aug. 1, 2020),
https://www.cdc.gov/coronavirus/2019-ncov/cases-upd
ates/cases-in-us.html. To prevent the spread of

App. 17
infection, the CDC recommends keeping at least six
feet distance between individuals who do not live in the
same household. See CDC, Coronavirus Disease 2019
(COVID-19): How to Protect Yourself & Others (July 31,
2020), https://www.cdc.gov/coronavirus/2019ncov/prevent-getting-sick/prevention.html. During the
pandemic, Congress had continued working and has
passed relief bills aimed at addressing the public
health emergency,1 but Members have not been
immune from the diseases’ spread. See Defs.’ Opp’n
Mot. Prelim. Inj. (“Defs.’ Opp’n”) at 13, ECF No. 16-1
(noting that eight Members of Congress have
contracted the virus).
House Regulation 965 relates directly to COVID-19
and the novel coronavirus that causes the disease.
Specifically, H. Res. 965 allows the Speaker, after
notification “by the Sergeant-at-Arms, in consultation
with the Attending Physician, that a public health
emergency due to a novel coronavirus is in effect,” to
designate a period of time “during which a Member
who is designated by another Member as a proxy . . .
may cast the vote of such other Member or record the
presence of such other Member in the House.” H. Res.
965 § 1(a). The period of time designated by the
speaker terminates after 45 days but may be extended
if the public health emergency remains in effect. Id.
1

See Coronavirus Preparedness and Response Supplemental
Appropriations Act, Pub. L. No. 116-123, 134 Stat. 146 (2020);
Families First Coronavirus Response Act, Pub. L. No. 116-127, 134
Stat. 178 (2020); Coronavirus Aid, Relief and Economic Security
(CARES) Act, Pub. L. No. 116-136, 134 Stat. 281 (2020); Paycheck
Protection and Health Care Enhancement Act, Pub. L. No.
116-139, 134 Stat. 620 (2020).

App. 18
§ 1(b). Proxies are designated by Members submitting
a signed letter to the Clerk that specifies the Member
serving as the proxy. Id. § 2(a)(2). Designation may be
revoked at any time by submitting a signed letter to
the Clerk and is automatically revoked after a vote or
a recording of the absent Member’s presence. Id. A
Member may be designated as a proxy for only up to
ten other Members and the Clerk is charged with
maintaining a list of all designations. Id. § 2(a)(4)–(b).
Members who have designated proxies are “counted for
the purpose of establishing a quorum under the rules
of the House.” Id. § 3(b). Members serving as proxies
must (1) obtain “exact instruction from the other
Member with respect to such vote or quorum call,”
(2) “announce the intended vote or recorded presence
pursuant to the exact instruction received from the
other Member,” and (3) “cast such vote or record such
presence pursuant to the exact instruction received
from the other Member.” Id. § 3(c).2
Plaintiffs sued on May 26, 2020 and filed an
amended complaint on May 29, 2020. See Am. Compl.
On the same day, they filed for a preliminary
injunction and for entry of a permanent injunction and
final judgment. See Pls.’ Mot. for Prelim. Inj. (“Pls.’
Mot.”), ECF No. Defendants filed their opposition and
a motion to dismiss on June 19, 2020. See Defs.’ Opp’n.
The parties agree that the case presents purely legal
questions regarding the justiciability of Plaintiffs’
claims and the correct interpretation of the
2

Defendants noted during oral argument that, as of July 24, 2020,
a quorum has been reached without counting the Members voting
by proxy.

App. 19
Constitution. The Court held oral argument on July 24,
2020 and has now fully considered the parties’
arguments.
III. ANALYSIS
Defendants argue that the Court should not reach
the merits of Plaintiffs’ claims for three primary
reasons. First, Defendants claim that Plaintiffs lack
standing because H. Res. 965 does not result in vote
dilution, the injury claimed by Plaintiffs. Second,
Defendants argue that Plaintiffs lack standing under
Raines v. Byrd, 521 U.S. 811 (1997). Third, Defendants
argue that the Speech or Debate Clause bars the suit.
The Court addresses each argument in turn but relies
only on the third to dismiss Plaintiffs’ Amended
Complaint.
A. Standing
To establish standing under Article III of the
Constitution, Plaintiffs—both the Members and
constituent Plaintiffs—must demonstrate that: (1) they
have suffered an injury that is both “concrete and
particularized” and “actual or imminent,” rather than
conjectural or hypothetical; (2) the injury is fairly
traceable to the challenged conduct; and (3) the injury
is likely to be redressed by a court decision in their
favor. Lujan v. Defs. of Wildlife, 504 U.S. 555, 560–61
(1992). When assessing Plaintiffs’ standing, the Court
“must assume they will prevail on the merits of their
constitutional claims.” LaRoque v. Holder, 650 F.3d
777, 785 (D.C. Cir. 2011) (citing Muir v. Navy Fed.
Credit Union, 529 F.3d 1100, 1105 (D.C. Cir. 2006)).

App. 20
1. Vote Dilution
To establish the injury element of standing,
Plaintiffs argue that allowing Members to vote by
proxy dilutes their voting power. Am. Compl.
¶¶ 258–60. Because H. Res. 965 allows a Member to
serve as a proxy for up to ten other Members, Plaintiffs
claim that the Member serving as a proxy has a
disproportionate share of voting power relative to the
Members physically present not serving as proxies.
Plaintiffs put forth the following hypothetical to
demonstrate:
Suppose 200 Members vote on a measure on the
floor of the House and another 50 absent
Members purport to vote by proxy under the H.
Res. 965. If the Court assumes, as it must, that
the proxy rule is unconstitutional, the proxy
votes, as a matter of simple arithmetic, dilute
the voting power of each of the Representative
Plaintiffs from 1/200 of the House’s power to
1/250, indisputably inflicting a concrete injury.
Pls.’ Reply at 3, ECF No. 24. The rule, Plaintiffs claim,
effectively amplifies the voting power of Members
serving as proxies and diminishes the power of
Members physically present voting only for themselves.
Defendants respond that H. Res. 965 does not result
in vote dilution because the text of the rule “makes
clear that each Member is entitled to one and only one
vote.” Defs.’ Opp’n at Plaintiffs, they argue, “urge the
Court to ignore House Resolution 965's text and
interpret it to mean that some Members are entitled to
cast multiple votes.” Id. at 23. In response to Plaintiffs’

App. 21
hypothetical, Defendants say “each Member is
constitutionally entitled to one vote out of the total
number of House Members (up to 435). Under the
House’s rules, all Members receive that share . . .
[Under H. Res. 965], Plaintiffs’ votes weigh no less
than before.” Defs.’ Reply at 3, ECF. No. 26. Because
the proxy voting rules do not change Plaintiffs’ share of
the vote relative to the House as a whole, Defendants
say that the alleged injury of vote dilution cannot be
established.
In Michel v. Anderson,3 the D.C. Circuit considered
whether a House rule that granted delegates from
Puerto Rico, Guam, the Virgin Islands, American
Samoa, and the District of Columbia a right to vote in
the Committee of the Whole violated the Constitution.
14 F.3d 623, 624–25 (D.C. Cir. 1994). The court took as
a given that Members of Congress had “standing to
assert their voting power has been diluted.” Id. at 625
(citing Vander Jagt v. O’Neill, 699 F.2d 1166 (D.C. Cir.
1982)). Instead, the court focused on whether the
constituent plaintiffs had standing to raise what the
defendants called “a generalized abstract grievance”
about their Members’ voting power. Id. at 626. Finding
the constituent plaintiffs did have standing, the court
stated “it is difficult to understand why voters would
not have standing to raise a claim that their vote was
diluted because previously they had a right to elect a
representative who cast one of 435 votes, whereas now

3

Whether Michel and other cases on legislative standing cited here
remain good law in the D.C. Circuit is discussed in Section III.A.2.
below.

App. 22
their vote elects a representative whose vote is worth
only one in 440.” Id.
In Vander Jagt, the court considered a claim from
Members alleging that their voting power had been
diluted “by providing them with fewer seats on House
committees and subcommittees than they are
proportionally owed.” 699 F.2d at 1167. Explaining the
Members’ claim, the court stated that “[e]ven though
Republicans constituted 44.14% of the House and
Democrats 55.86%, Republicans were given only 40% of
the seats on the Budget Committee and the
Appropriations Committee, only 34.29% of the Ways
and Means Committee seats, and only 31.25% of the
Rules Committee seats.” Id. The court found standing
had been established based on the allegations that “as
legislators and as voters their political power has been
diluted.” Id. at 1168.
In Skaggs v. Carle, a group of Members and
constituents challenged a House rule that required a
three-fifths majority, instead of a simple majority, to
pass any bill containing an income tax increase. 110
F.3d 831, 833 (D.C. Cir. 1997). The plaintiffs argued
they had “standing to challenge the dilution of a
Representative’s vote from one of 218 to one of 261
needed (assuming that all 435 Members vote) for the
House to pass an income tax increase.” Id. at 834. The
court, following Michel, held “that vote dilution is itself
a cognizable injury” but that the challenged rule did
not in fact dilute voting power because a simple
majority could vote to bypass the new requirement. Id.
at 835. While the dissenting judge disagreed with this
holding, he described the vote dilution injury similarly

App. 23
as “dilution of [Representatives’] votes from 1/218th to
1/261st of the votes necessary to pass a tax increase.”
Id. at 837 (Edwards, C.J., dissenting).
Michel, Vander Jagt, and Skaggs all speak of voting
power, and consequently the dilution of that voting
power, in similar terms; a Members’ voting power is
defined relative to the entire congressional body. See
Michel, 14 F.3d at 626 (“a representative who cast one
of 435 votes . . . is [now] worth only one in 440”);
Vander Jagt, 699 F.2d at 1167 (noting smaller
percentages of committee seats “[e]ven though
Republicans constituted 44.14% of the House and
Democrats 55.86%”) (emphasis added); Skaggs, 110
F.3d at 834 (“the dilution of a Representative’s vote
from one of 218 to one of 261 needed (assuming that all
435 Members vote)”). The Court understands Plaintiffs
argument to require a slightly different definition.
Rather than allege a dilution of voting power relative
to the entire House, Plaintiffs allege dilution of voting
power relative to Members physically present for a
particular vote. This formulation of the injury requires
assuming that Members are entitled to a share of the
vote defined by the number of Members voting in the
House chamber. This theory of vote dilution assumes
that Members’ voting power is dynamic; for one vote,
where some are absent, a Member may enjoy 1/400th
share while for another vote, where all are present, the
share shrinks to 1/435th share. The Court accepts that,
as a practical reality, when fewer votes are counted
each vote carries more weight. But that does not mean
Members’ voting power should necessarily be defined
dynamically.

App. 24
The parties do not cite, and the Court has not found,
any cases adopting Plaintiffs’ theory of vote dilution.
Every case discussed by the parties defines Member
voting power relative to the entire congressional body.
The Court has doubts whether Members should be
entitled to any more than 1/435th share of the voting
power in the House. See Nev. Comm’n on Ethics v.
Carrigan, 564 U.S. 117, 125–26 (2011) (“A legislator’s
vote is the commitment of his apportioned share of the
legislature’s power to the passage or defeat of a
particular proposal.”) (emphasis added). Indeed, one
could argue that choosing to abstain or to be entirely
absent for a particular vote are methods of expressing
that share of congressional power; it is not clear that
Members should be subtracted from the denominator
when they are not present. However, because the Court
relies on other jurisdictional grounds to dismiss this
case, it need not resolve whether Plaintiffs’ formulation
of the vote dilution injury gives rise to standing.
2. Raines v. Byrd
Raines stands for the principle that an “abstract
dilution of institutional legislative power” cannot
establish an injury for the purposes of Article III
standing. 521 U.S. at 826. In a line of cases predating
Raines, the D.C. Circuit repeatedly found that
Members of Congress had standing to challenge actions
that allegedly diminished the institutional power of
Congress. See e.g., Moore v. U.S. House of
Representatives, 733 F.2d 946, 952–54 (D.C. Cir. 1984)
(finding Members had standing to challenge alleged
interference with House right to originate bills for
raising revenue); Kennedy v. Sampson, 511 F.2d 430,

App. 25
432–33 (D.C. Cir. 1974) (finding Senator had standing
to challenge pocket veto). In many of these cases,
rather than dismissing the action under the rubric of
standing, the court held that the cases were
nonjusticiable as a matter of remedial discretion
animated by separation-of-powers concerns. See Moore,
733 F.2d at 956; Vander Jagt, 699 F.2d at 1174–75.
Having “never had occasion to rule on the question
of legislative standing” raised by these cases, 521 U.S.
at 820, the Supreme Court in Raines considered
whether Members of Congress had standing to
challenge the Line Item Veto Act, id. at 814. The Line
Item Veto Act allowed the President to cancel certain
spending and tax benefit measures after he had signed
a bill into law. Id. Relying on D.C. Circuit precedent,
the lower courts had found the Members had standing
to bring suit because they claimed that the legislation
diluted their Article I voting power—they claimed the
line item veto allowed the President to circumvent
Congress’s right to vote on legislation prior to becoming
law. Id. at 816–17. Emphasizing the “especially
rigorous” standing inquiry required when reviewing the
constitutionality of the actions of another branch of the
Federal Government, id. at 819–20, the Court rejected
the claim that an “institutional injury (the diminution
of legislative power)” gives rise to standing, id. at 821.
The Court found that the Members “ha[d] not been
singled out for specially unfavorable treatment” and
that their claim was not “that they ha[d] been deprived
of something to which they personally [were] entitled.”
Id. (emphasis in original). “[T]he abstract dilution of
institutional legislative power” was not sufficient to
support standing under Article III. Id. at 826.

App. 26
The parties dispute the scope of Raines and its
application to the present case. Defendants argue that
Raines and its progeny “establish that individual
legislators cannot sue based on an alleged dilution of
their voting power.” Defs.’ Opp’n at 24. They claim that
Plaintiffs’ alleged injury—dilution of voting power—is
the exact injury rejected in Raines. Id. at 25.
Furthermore, and central to their position, Defendants
argue Raines overruled Michel, the primary case relied
on by Plaintiffs to show standing. Id. at 28–29.
Defendants note that Raines cited Michel as a case the
district court below relied on to find standing before
overturning that finding and “rejecting an approach
that would base standing on ‘the abstract dilution of
institutional legislative power.’” Id. at 28 (quoting
Raines, 521 U.S. at 826). Defendants claim that the
holding in Raines squarely contradicts Michel and
therefore Michel is no longer good law. Id. at 29.
Plaintiffs disagree. They state that “Defendants cite
no D.C. Circuit decision endorsing their view, which is
not surprising because the D.C. Circuit has never
said—much less held—that Raines abrogated Michel or
Vander Jagt.” Pls.’ Reply at 5. Plaintiffs maintain that
the Court must follow Michel unless “Supreme Court
precedent ‘eviscerates’ the circuit precedent, such that
the two decisions are ‘incompatible with’ each other.”
Id. at 5–6 (quoting Perry v. Merit Sys. Prot. Bd., 829
F.3d 760, 764 (D.C. Cir. 2016), rev’d on other grounds,
137 S. Ct. 1975 (2017)). Plaintiffs argue Raines and
Michel can coexist because Raines only foreclosed
claims of an “institutional injury” in an interbranch, as
opposed to intrabranch, context. Pls.’ Reply at 7–9. D.C.
Circuit cases following Raines make clear, they say,

App. 27
that the “holding is limited to situations in which
Members seek to vindicate the powers of Congress as
an institution, usually against a perceived attack on
Congress’s powers by the President.” Id. at 8 (emphasis
in original).
Language in Raines and the D.C. Circuit cases
applying its holding lend support to Plaintiffs’ view.
First, Raines left undisturbed the holding in Coleman
v. Miller, 307 U.S. 433 (1939). The Raines Court
explained that the legislators in Coleman had standing
to sue because the votes there “were deprived of all
validity.”4 521 U.S. at 822. While Plaintiffs have not
alleged a complete deprivation of their votes, the
Raines Court’s treatment of Coleman carves out space
for at least some cases involving legislative standing to
move forward. Second, and more importantly for
Plaintiffs, the Raines Court noted that the Members at
issue in that case were “unable to show that their vote
was denied or nullified in a discriminatory manner (in
the sense that their vote was denied its full validity in
relation to the votes of their colleagues),” so
hypotheticals such as a law “in which first-term
Members were not allowed to vote on appropriations
bills” were inapplicable. Id. at 824 n.7 (internal
quotations omitted). Arguably, such hypotheticals are
4

Coleman v. Miller involved state legislators challenging Kansas’s
adoption of the Child Labor Amendment to the Constitution where
the legislative body had been evenly split on the question, which
would normally defeat the resolution, but the Lieutenant Governor
cast the deciding vote. 307 U.S. 433, 435–36. The Court found
that the plaintiffs had standing, stating that they “ha[d] a plain,
direct and adequate interest in maintaining the effectiveness of
their votes.” Id. at 438.

App. 28
relevant to this case, even if proxy voting is not
discriminatory in the same manner. Such hypotheticals
involve internal House rules that change the voting
power of Members relative to other Members. If
Plaintiffs’ vote dilution theory is accepted, then they
have alleged that “their vote was denied its full validity
in relation to the votes of their colleagues.” Id.
Moreover, Raines does not specifically state that Michel
was overruled.
In Chenoweth v. Clinton, the D.C. Circuit
considered the impact of Raines on the circuit’s
legislative standing precedent. 181 F.3d 112, 115–16
(D.C. Cir. 1999). Lending support to Plaintiffs’
interbranch/intrabranch distinction, Chenoweth
involved Members challenging a Presidential Executive
Order and alleging a diminution of legislative power.
Id. at 112–13. The court stated that the injury the
plaintiffs claimed, “a dilution of their authority as
legislators,” was “precisely the harm we held in Moore
and Kennedy to be cognizable under Article III . . . [but]
also, however, identical to the injury the Court in
Raines deprecated as ‘widely dispersed’ and ‘abstract.’”
Id. at 115. As such, the court found that “the portions
of our legislative standing cases upon which the
current plaintiffs rely are untenable in light of Raines.”
Id. Notably, Chenoweth does not mention Michel or
Vander Jagt as cases repudiated by Raines.
In Campbell v. Clinton, Members challenged the
President’s use of U.S. military forces in Yugoslavia as
violating the War Powers Clause of the Constitution
and thereby diminishing their legislative power. 203
F.3d 19, 19 (D.C. Cir. 2000). Applying Raines, the court

App. 29
found that the Members lacked standing, in large part
because of the “political self-help available to
congressmen.” Id. at 24. Lending support to Plaintiffs’
reading of Raines, the court noted an exception to
Raines may exist where, as in Coleman, legislators’
votes are entirely nullified. Id. at 23. More importantly
for Plaintiffs, Campbell cites Michel as a type of claim
that Raines did not foreclose. Id. at 21 n.2 (“The Court
[in Raines] did not decide whether congressmen would
have standing to challenge actions of Congress which
diminished their institutional role. Cf. Michel v.
Anderson, 14 F.3d 623 (D.C. Cir. 1992) (congressmen
had standing to challenge House rule which diluted
their vote in Committee of the Whole).”). Campbell’s
treatment of Michel suggests that it survived Raines
and remains binding precedent on this Court.
An even more recent example, Blumenthal v.
Trump, yet again involves a dispute between Congress
and the President, not a dispute between Members of
Congress. 949 F.3d 14, 19 (D.C. Cir. 2020). There,
Members argued that their institutional role had been
diminished because the President failed to obtain
congressional consent before receiving Emoluments. Id.
Because the claim was “based entirely on the loss of
political power,” the court could “resolve th[e] case by
simply applying Raines.” Id. According to the court,
“only an institution can assert an institutional injury
provided the injury is not ‘wholly abstract and widely
dispersed.’” Id. at 19–20 (citing Raines, 521 U.S. at
829). Like Chenoweth and Campbell, Blumenthal
involved an interbranch dispute with Members alleging
an injury to Congress as a whole. As such, the facts do
not mirror the present case.

App. 30
The broad principles undergirding Raines,
Chenoweth, Campbell, and Blumenthal could be
applied to this case, but the Court is not convinced that
Michel has been overruled. Raines carved out space for
claims like Coleman, where Members’ votes are
stripped of all validity. 521 U.S. 823–24. Raines also
did not rule on the viability of a claim about a House
rule in which “first-term Members were not allowed to
vote on appropriations bills,” or other similar rules. Id.
at 824 n.7. And Campbell clarified, while citing Michel,
that Raines “did not decide whether congressmen
would have standing to challenge actions of Congress
which diminished their institutional role.” 203 F.3d at
21 n.2. On the other hand, many portions of Raines
suggest that this case falls within its logic. See 521 U.S.
at 819–20 (“our standing inquiry has been especially
rigorous when reaching the merits of the dispute would
force us to decide whether an action taken by one of the
other two branches of the Federal Government was
unconstitutional”); id. at 821 (“appellees have not been
singled out for specially unfavorable treatment”); id.
(“appellees do not claim that they have been deprived
of something to which they personally are entitled”); id.
at 826 (“There is a vast difference between the level of
vote nullification at issue in Coleman and the abstract
dilution of institutional legislative power that is alleged
here.”). Be that as it may, as a matter of district court
restraint, the Court cannot contradict circuit precedent
because Michel was not necessarily eviscerated by
Raines. However, because an independent
jurisdictional hurdle bars this claim, the Court need
not resolve Raines’s applicability to this case.

App. 31
B. Speech or Debate Clause
The Speech or Debate Clause of the Constitution
(the “Clause”) states that “for any Speech or Debate in
either House, [Members of Congress] shall not be
questioned in any other Place.” U.S. Const. art. I, § 6,
cl. 1. The Clause “reflects the Founders’ belief in
legislative independence.” Rangel v. Boehner, 785 F.3d
19, 23 (D.C. Cir. 2015) (citing United States v.
Brewster, 408 U.S. 501, 524 (1972)). The Clause
“provides absolute immunity from civil suit” and has
been consistently read “broadly to achieve its
purposes.” Id. (internal quotations omitted) (citing
Eastland v. U.S. Servicemen’s Fund, 421 U.S. 491,
501–03 (1975)). To this end, the Clause does not only
apply to actual “Speech or Debate,” but also to all
“legislative acts.” Doe v. McMillan, 412 U.S. 306, 312
(1973). “Legislative acts” are “generally done in a
session of the House by one of its members in relation
to the business before it,” Kilbourn v. Thompson, 103
U.S. 168, 204 (1880), and “must be an integral part of
the deliberative and communicative processes by which
Members participate in committee and House
proceedings with respect to the consideration and
passage or rejection of proposed legislation,” Gravel v.
United States, 408 U.S. 606, 625 (1972). The Clause
extends to aides and congressional staff carrying out
legislative acts. See Rangel, 785 F.3d at 24–25.
Defendants argue that Plaintiffs’ challenge of
H. Res. 965 falls squarely within the scope of the
Clause’s grant of immunity. Defendants claim the
proxy vote rules regulate voting and “voting by
Members is a quintessential legislative act.” Defs.’

App. 32
Opp’n at 35. And Defendants say that Plaintiffs’
pleading against “the Speaker, the Clerk, and the
Sergeant-at-Arms for their administration of the proxy
voting rules,” does not change the application of the
Clause because “execution of internal House rules is a
‘legislative’ act entitled to . . . immunity.” Id. (emphasis
in original). Defendants rely primarily on Consumers
Union to argue that “enforcing internal rules of
Congress validly enacted under authority specifically
granted to the Congress” enjoys protection under the
Clause. Id. (quoting Consumers Union v. Periodical
Correspondents’ Ass’n, 515 F.2d 1341, 1350 (D.C. Cir.
1975)).
Plaintiffs draw a distinction between actual
legislative acts and “executing a legislative order, or
carrying out [legislative] directions.” Pls.’ Reply at 16
(quoting Walker v. Jones, 733 F.2d 923, 931 (D.C. Cir.
1984) (alterations in second source). They point to
Kilbourn, where the Supreme Court held that the
Clause did not bar a false imprisonment suit against
the House Sergeant-at-Arms for carrying out an arrest
that the Court found was illegal. Id. at 15 (citing
Kilbourn, 103 U.S. at 196). Plaintiffs say Powell also
supports their position because the Court allowed
claims against House employees—acting based on
instructions from Members—to move forward. Id. at 16
(citing Powell v. McCormack, 395 U.S. 486, 504–06
(1969)). Administration of the proxy voting rules,
Plaintiffs claim, falls “unquestionably on the ‘execution’
side of the line.” Id. at 17. They further argue that
construing H. Res. 965 as integral to the legislative
process rejects the historical fact that proxy voting has
never been used. Id. at 17–18. Finally, Plaintiffs say

App. 33
that Consumers Union, which Plaintiffs’ counsel
acknowledged is Defendants’ best case during oral
argument, is “readily distinguishable” because the
plaintiff there brought an as-applied challenge and
because the rule at issue there, as opposed to proxy
voting, had a long history of use in Congress. See id. at
19.
It is true that, in Walker v. Jones, the D.C. Circuit
recognized the distinction explained by Plaintiffs. The
court highlighted the “decidedly jaundiced view toward
extending the Clause” to shield “executing a legislative
order,” or “carrying out [legislative] directions.” Walker,
733 F.2d at 931–32 (quoting Gravel, 408 U.S. at
620–21(internal quotations omitted)). But the court
also stated that “[t]he key consideration, Supreme
Court decisions teach, is the act presented for
examination, not the actor. Activities integral to the
legislative process may not be examined.” Id. at 929. In
Walker, the court found that extending the Clause’s
protection to the hiring and firing of a food service
manager would “stretch the meaning of the word
[“legislative”] beyond sensible proportion.” Id. at 931.
But this case does not involve a matter so far removed
from the legislative process. Applying the Clause here
to the administration of rules governing how Members
can vote on legislation by proxy does not stretch the
meaning of the word “legislative” in a similar way or in
any way at all.
Consumers Union offers further guidance on the
scope of the Clause. There, the plaintiff sued the
Sergeants-at-Arms of both the House and Senate
challenging the constitutionality of rules governing

App. 34
access to the press galleries of each chamber. 515 F.2d
at 1342–46. The plaintiff had been denied the
accreditation required to access the press galleries and
alleged that the rules governing the galleries violated
the First Amendment. Id. at 1342. The Sergeants-atArms—like the Clerk and Sergeant-at-Arms in this
case—were ultimately responsible for enforcing the
rules. Id. at 1345. The district court below had
determined “that legislative immunity by virtue of the
Speech or Debate Clause did not attach to the
appellants who were non-members of Congress.” Id. at
1346. But the D.C. Circuit reversed, finding that the
rules at issue were “matters committed by the
Constitution to the Legislative Department” and
therefore the Speech or Debate Clause barred the suit.
Id. The court found that even though the defendants
“were not engaged in the consideration and passage or
rejection of proposed legislation,” the Clause protected
them because “[t]hey were enforcing internal rules of
Congress validly enacted under authority specifically
granted to the Congress and within the scope of
authority appropriately delegated by it.” Id. at 1350.
Controlling who had access to the press galleries
constituted functions that “were an integral part of the
legislative machinery.” Id.
The Court finds that Consumers Union controls;
Plaintiffs’ efforts to distinguish the case are
unconvincing.5 If rules controlling access to the press

5

Plaintiffs suggested that Consumers Union could be distinguished
because the plaintiff only brought an as-applied challenge whereas
here Plaintiffs challenge the validity of the proxy voting rules “in
toto.” Pls.’ Reply at 19. The Court does not find this distinction

App. 35
galleries are “an integral part of the legislative
machinery,” rules controlling how Members vote are
even more so. Id. The proxy voting rules constitute
“regulation of the very atmosphere in which lawmaking
deliberations occur.” Walker, 733 F.2d at 930
(discussing Consumers Union). Plaintiffs’ claim that
Consumers Union should not apply because proxy
voting has never been used before, Pls.’ Reply at 19–20,
does not change the fact that it has become part of “the
legislative machinery” by which the House operates
today, Consumers Union, 515 F.2d at 1350. And the
House unquestionably has the authority, under the
Constitution, to “determine the Rules of its
Proceedings.” U.S. Const. art. I, § 5, cl. 2. The Court
can conceive of few other actions, besides actually
debating, speaking, or voting, that could more
accurately be described as “legislative” than the
regulation of how votes may be cast. And Plaintiffs’
suggestion during oral argument that Consumers
Union is an outlier case does not change that it is
binding precedent for this Court and has been
reaffirmed in subsequent cases. See Barker v. Conroy,
921 F.3d 1118, 1127– 28 (D.C. Cir. 2019); Rangel, 785
F.3d at 24 (quoting Consumers Union, 515 F.2d at
1351) (“Congress’s ‘execution of internal rules’ is

convincing. As Defendants note, the plaintiff in Consumers Union
did put forth a facial challenge to the rules, see 515 F.2d at
1345–46, and “[a]n act does not lose its legislative character simply
because a plaintiff alleges that it violated . . . the Constitution.”
Defs.’ Reply at 11 (quoting Rangel, 785 F.3d at 24 (citations
omitted)).

App. 36
‘legislative’”).6 This Court is no freer to contradict
Consumers Union because it may be an outlier than it
is to contradict Michel because it may have been
implicitly overruled by Raines.
IV. CONCLUSION
For the foregoing reasons, the Court finds that
Defendants are immune from suit under the Speech or
Debate Clause and therefore GRANTS Defendants’
Motion to Dismiss and DENIES Plaintiffs’ Motion for
Preliminary Injunction. An order consistent with this
Memorandum Opinion is separately and
contemporaneously issued.
Dated: August 6, 2020

6

RUDOLPH CONTRERAS
United States District Judge

The implications of the broad immunity conferred by the Clause,
while important for ensuring an independent legislative body, may
be troubling. See Brewster, 408 U.S. at 516 (“[T]he Clause is a very
large, albeit essential, grant of privilege. It has enabled reckless
men to slander and even destroy others with impunity.”). But the
present case does not involve hypothetical rules, discussed at oral
argument, that deprive Members of votes on a discriminatory
basis. Therefore, the Court need not decide whether immunity
would apply in a such a case.

App. 37

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 20-1395 (RC)
Re Document Nos. 8, 16
[Filed: August 6, 2020]
_________________________________________
HON. KEVIN OWEN MCCARTHY, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
HON. NANCY PELOSI, et al.,
)
)
Defendants.
)
_________________________________________ )
ORDER
GRANTING DEFENDANTS’ MOTION TO DISMISS;
DENYING PLAINTIFFS’ MOTION FOR
PRELIMINARY INJUNCTION
For the reasons stated in the Court’s Memorandum
Opinion separately and contemporaneously issued,
Defendants’ motion to dismiss (ECF No. 16) is
GRANTED; Plaintiffs’ motion for preliminary
injunction (ECF No. 8) is DENIED.

App. 38
SO ORDERED.
Dated: August 6, 2020

RUDOLPH CONTRERAS
United States District Judge

App. 39

APPENDIX D
H. Res. 965
In the House of Representatives, U. S.,
May 15, 2020.
Resolved,
SECTION 1. AUTHORIZATION OF REMOTE VOTING BY
P ROXY D URING P UBLIC H EALTH
EMERGENCY DUE TO NOVEL
CORONAVIRUS.
(a) AUTHORIZATION.—Notwithstanding rule III, at
any time after the Speaker or the Speaker’s designee is
notified by the Sergeant-at-Arms, in consultation with
the Attending Physician, that a public health
emergency due to a novel coronavirus is in effect, the
Speaker or the Speaker’s designee, in consultation with
the Minority Leader or the Minority Leader’s designee,
may designate a period (hereafter in this resolution
referred to as a “covered period”) during which a
Member who is designated by another Member as a
proxy in accordance with section 2 may cast the vote of
such other Member or record the presence of such other
Member in the House.
(b) LENGTH OF COVERED PERIOD.—
(1) IN GENERAL.—Except as provided in
paragraphs (2) and (3), a covered period shall
terminate 45 days after the Speaker or the
Speaker’s designee designates such period.

App. 40
(2) EXTENSION.—If, during a covered period, the
Speaker or the Speaker’s designee receives further
notification from the Sergeant-at-Arms, in
consultation with the Attending Physician, that the
public health emergency due to a novel coronavirus
remains in effect, the Speaker or the Speaker’s
designee, in consultation with the Minority Leader
or the Minority Leader’s designee, may extend the
covered period for an additional 45 days.
(3) EARLY TERMINATION.—If, during a covered
period, the Speaker or the Speaker’s designee
receives further notification by the Sergeant-atArms, in consultation with the Attending Physician,
that the public health emergency due to a novel
coronavirus is no longer in effect, the Speaker or the
Speaker’s designee shall terminate the covered
period.
SEC. 2. PROCESS FOR DESIGNATION OF PROXIES.
(a) IN GENERAL.—
(1) DESIGNATION BY SIGNED LETTER.—In order
for a Member to designate another Member as a
proxy for purposes of section 1, the Member shall
submit to the Clerk a signed letter (which may be in
electronic form) specifying by name the Member
who is designated for such purposes.
(2) A LTERATION
DESIGNATION.—

OR

R EVOCATION

OF

(A) IN GENERAL.—At any time after
submitting a letter to designate a proxy under
paragraph (1), a Member may submit to the

App. 41
Clerk a signed letter (which may be in electronic
form) altering or revoking the designation.
(B) AUTOMATIC REVOCATION UPON CASTING
OF VOTE OR RECORDING OF PRESENCE.—If during
a covered period, a Member who has designated
another Member as a proxy under this section
casts the Member’s own vote or records the
Member’s own presence in the House, the
Member shall be considered to have revoked the
designation of any proxy under this subsection
with respect to such covered period.
(3) NOTIFICATION.—Upon receipt of a letter
submitted by a Member pursuant to paragraphs (1)
or (2), the Clerk shall notify the Speaker, the
majority leader, the Minority Leader, and the other
Member or Members involved of the designation,
alteration, or revocation.
(4) LIMITATION.—A Member may not be
designated as a proxy under this section for more
than 10 Members concurrently.
(b) MAINTENANCE AND AVAILABILITY OF LIST OF
DESIGNATIONS.—The Clerk shall maintain an updated
list of the designations, alterations, and revocations
submitted or in effect under subsection (a), and shall
make such list publicly available in electronic form and
available during any vote conducted pursuant to
section 3.

App. 42
SEC. 3. PROCESS
PERIODS.

FOR

VOTING DURING COVERED

(a) RECORDED VOTES ORDERED.—
(1) IN GENERAL.—Notwithstanding clause 6 of
rule I, during a covered period, the yeas and nays
shall be considered as ordered on any vote on which
a recorded vote or the yeas and nays are requested,
or which is objected to under clause 6 of rule XX.
(2) INDICATIONS OF PROXY STATUS.—In the case
of a vote by electronic device, a Member who casts
a vote or records a presence as a designated proxy
for another Member under this resolution shall do
so by ballot card, indicating on the ballot card “by
proxy”.
(b) DETERMINATION OF QUORUM.—Any Member
whose vote is cast or whose presence is recorded by a
designated proxy under this resolution shall be counted
for the purpose of establishing a quorum under the
rules of the House.
(c) INSTRUCTIONS
PROXY.—

FROM

MEMBER AUTHORIZING

(1) RECEIVING INSTRUCTIONS.—Prior to casting
the vote or recording the presence of another
Member as a designated proxy under this
resolution, the Member shall obtain an exact
instruction from the other Member with respect to
such vote or quorum call, in accordance with the
regulations referred to in section 6.

App. 43
(2) ANNOUNCING INSTRUCTIONS.—Immediately
prior to casting the vote or recording the presence of
another Member as a designated proxy under this
resolution, the Member shall seek recognition from
the Chair to announce the intended vote or recorded
presence pursuant to the exact instruction received
from the other Member under paragraph (1).
(3) FOLLOWING INSTRUCTIONS.—A Member
casting the vote or recording the presence of
another Member as a designated proxy under this
resolution shall cast such vote or record such
presence pursuant to the exact instruction received
from the other Member under paragraph (1).
SEC. 4. AUTHORIZING REMOTE PROCEEDINGS
COMMITTEES.

IN

(a) AUTHORIZATION.—During any covered period,
and notwithstanding any rule of the House or its
committees—
(1) any committee may conduct proceedings
remotely in accordance with this section, and any
such proceedings conducted remotely shall be
considered as official proceedings for all purposes in
the House;
(2) committee members may participate
remotely during in-person committee proceedings,
and committees shall, to the greatest extent
practicable, ensure the ability of members to
participate remotely;
(3) committee members may cast a vote or record
their presence while participating remotely;

App. 44
(4) committee members participating remotely
pursuant to this section shall be counted for the
purpose of establishing a quorum under the rules of
the House and the committee;
(5) witnesses at committee proceedings may
appear remotely;
(6) committee proceedings conducted remotely
are deemed to satisfy the requirement of a “place”
for purposes of clauses 2(g)(3) and 2(m)(1) of rule
XI; and
(7) reports of committees (including those filed
as privileged) may be delivered to the Clerk in
electronic form, and written and signed views under
clause 2(l) of rule XI may be filed in electronic form
with the clerk of the committee.
(b) LIMITATION ON BUSINESS MEETINGS.—A
committee shall not conduct a meeting remotely or
permit remote participation at a meeting under this
section until a member of the committee submits for
printing in the Congressional Record a letter from a
majority of the members of the committee notifying the
Speaker that the requirements for conducting a
meeting in the regulations referred to in subsection (h)
have been met and that the committee is prepared to
conduct a remote meeting and permit remote
participation.
(c) REMOTE PROCEEDINGS.—Notwithstanding any
rule of the House or its committees, during proceedings
conducted remotely pursuant to this section—

App. 45
(1) remote participation shall not be considered
absence for purposes of clause 5(c) of rule X or
clause 2(d) of rule XI;
(2) the chair may declare a recess subject to the
call of the chair at any time to address technical
difficulties with respect to such proceedings;
(3) copies of motions, amendments, measures, or
other documents submitted to the committee in
electronic form as prescribed by the regulations
referred to in subsection (h) shall satisfy any
requirement for the submission of printed or
written documents under the rules of the House or
its committees;
(4) the requirement that results of recorded
votes be made available by the committee in its
offices pursuant to clause 2(e)(1)(B)(i) of rule XI
shall not apply;
(5) a committee may manage the consideration
of amendments pursuant to the regulations referred
to in subsection (h);
(6) counsel shall be permitted to accompany
witnesses at a remote proceeding in accordance
with the regulations referred to in subsection (h);
and
(7) an oath may be administered to a witness
remotely for purposes of clause 2(m)(2) of rule XI.
(d) REMOTE PARTICIPANTS DURING IN-PERSON
PROCEEDINGS.—All relevant provisions of this section
and the regulations referred to in subsection (h) shall

App. 46
apply to committee members participating remotely
during in-person committee proceedings held during
any covered period.
(e) T RANSPARENCY FOR M EETINGS AND
HEARINGS.—Any committee meeting or hearing that is
conducted remotely in accordance with the regulations
referred to in subsection (h)—
(1) shall be considered open to the public;
(2) shall be deemed to have satisfied the
requirement for non-participatory attendance under
clause 2(g)(2)(C) of rule XI; and
(3) shall be deemed to satisfy all requirements
for broadcasting and audio and visual coverage
under rule V, clause 4 of rule XI, and accompanying
committee rules.
(f) SUBPOENAS.—
(1) AUTHORITY.—Any committee or chair thereof
empowered to authorize and issue subpoenas may
authorize and issue subpoenas for return at a
hearing or deposition to be conducted remotely
under this section.
(2) USE OF ELECTRONIC SIGNATURE AND
SEAL.—During any covered period, authorized and
issued subpoenas may be signed in electronic form;
and the Clerk may attest and affix the seal of the
House to such subpoenas in electronic form.

App. 47
(g) EXECUTIVE SESSIONS.—
(1) PROHIBITION.—A committee may not conduct
closed or executive session proceedings remotely,
and members may not participate remotely in
closed or executive session proceedings.
(2) MOTION TO CLOSE PROCEEDINGS.—Upon
adoption of a motion to close proceedings or to move
into executive session with respect to a proceeding
conducted remotely under this section, the chair
shall declare the committee in recess subject to the
call of the chair with respect to such matter until it
can reconvene in person.
(3) EXCEPTION.—Paragraphs (1) and (2) do not
apply to proceedings of the Committee on Ethics.
(h) REGULATIONS.—This section shall be carried out
in accordance with regulations submitted for printing
in the Congressional Record by the chair of the
Committee on Rules.
(i) APPLICATION TO SUBCOMMITTEES AND SELECT
COMMITTEES.—For purposes of this section, the term
‘’committee” or “committees” also includes a
subcommittee and a select committee.
SEC. 5. STUDY AND CERTIFICATION OF FEASIBILITY OF
REMOTE VOTING IN HOUSE.
(a) STUDY AND CERTIFICATION.—The chair of the
Committee on House Administration, in consultation
with the ranking minority member, shall study the
feasibility of using technology to conduct remote voting
in the House, and shall provide certification to the

App. 48
House upon a determination that operable and secure
technology exists to conduct remote voting in the
House.
(b) REGULATIONS.—
(1) INITIAL REGULATIONS.—On any legislative
day that follows the date on which the chair of the
Committee on House Administration provides the
certification described in subsection (a), the chair of
the Committee on Rules, in consultation with the
ranking minority member, shall submit regulations
for printing in the Congressional Record that
provide for the implementation of remote voting in
the House.
(2) SUPPLEMENTAL REGULATIONS.—At any time
after submitting the initial regulations under
paragraph (1), the chair of the Committee on Rules,
in consultation with the ranking minority member,
may submit regulations to supplement the initial
regulations submitted under such paragraph for
printing in the Congressional Record.
(c) IMPLEMENTATION.—Notwithstanding any rule of
the House, upon notification of the House by the
Speaker after the submission of regulations by the
chair of the Committee on Rules under subsection (b)—
(1) Members may cast their votes or record their
presence in the House remotely during a covered
period;
(2) any Member whose vote is cast or whose
presence is recorded remotely under this section

App. 49
shall be counted for the purpose of establishing a
quorum under the rules of the House; and
(3) the casting of votes and the recording of
presence remotely under this section shall be
subject to the applicable regulations submitted by
the chair of the Committee on Rules under
subsection (b).
SEC. 6. REGULATIONS.
To the greatest extent practicable, sections 1, 2, and
3 of this resolution shall be carried out in accordance
with regulations submitted for printing in the
Congressional Record by the chair of the Committee on
Rules.
Attest:

Clerk.

